LEGAL PRINTERS

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

September 24, 2020

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20-222:

GOLDMAN SACHS GROUP, INC.,
RETIREMENT SYSTEM, ET AL.

ET

AL. V. ARKANSAS TEACHER

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amici Curiae Financial
Economists on September 24, 2020, I caused service to be made pursuant to Rule 29 and
the Temporary Order of April 15, 2020 on the following counsel for the Petitioners and
Respondents:
PETITIONERS:
Kannon K. Shanmugam
Paul, Weiss, Rifkind, Wharton
& Garrison LLP
2001 K Street, N.W.
Washington, DC 20006
202-223-7300
kshanmugam@paulweiss.com

RESPONDENTS:
Thomas C. Goldstein
Goldstein & Russell, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
202-362-0636
tgoldstein@goldsteinrussell.com

This service was effected by depositing one copy of the Brief of Amici Curiae
Financial Economists in an official “first class mail” receptacle of the United States
Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 24th day of September 2020.

